NO; 20-8205

/

IN THE
SUPREME COURT OF THE UNITED STATES

In Re: John L. McKenzie

PETITION FOR LEAVE TO FILE PETITION
FOR REHEARING
Petitioner, John L. McKenzie, respectfully asks leave of this Honorable
Court to file his attached petition for Rehearing pursuant to Supreme Court Rule
44.
;

Respectfully submitted,
//

kry /^7^

/

Johu^L. McKenzie, DC# 930334
Okeechobee Correctional Institution
3420 N. E. 168th Street
Okeechobee, FL, 34972.

RECEIVED
JUL 2 2 2021
.supreme"cmfnrfi gK

NO: 20-8205
IN THE
SUPREME COURT OF THE UNITED STATES

t

ON

PETITION FOR REHEARING AND
PLENARY REVIEW

b

RECEIVED
2 2 2021

<

John L. McKenzie, DC# 930334
Okeechobee Corr. Inst.
3420 N. E. 168th Street
Okeechobee, FL, 34972.
Pro se

NO: 20-8205
IN THE
SUPREME COURT OF THE UNITED STATES

In Re: John L. McKenzie

PETITION FOR REHEARING AND PLENARY REVIEW
Petitioner, John L. McKenzie (McKenzie), respectfully petitions this Court
for Rehearing by the full Court of his actual innocence Habeas Corpus petition
pursuant to Supreme Court Rule 44 and states that the Court may have overlooked
r

or misapprehended the facts and/or law in the following ways:
1.

Denial of McKenzie's petition without explanation is contrary to this Court's

standard regarding actual innocence claims, it assures that an actually innocent
man will die in prison without ever having been allowed to present to the judiciary
his allegations of fundamental constitutional rights, which resulted in an actually
innocent man being imprisoned for life. It also undermines long lines of this
Court's decisional laws, especially those dealing with actual innocent and related
standards of review.
1 Thirty years ago McKenzie now 70, was diagnosed with Hepatitis C. Untreated until 2019 when
finally cured, the disease caused irreparable liver damage. Recently diagnosed with severe
fibrosis (Cirrhosis), with a Metavir score of 89 out of 100 (death), and a lesion on the left liver
tube, yet to determine if cancerous. (See attached).

2.

Specifically, Schlup v. Delo, 513 U.S. at 316 suggests this Court has held

manifest miscarriage of justice doctrine to be mandatory, not discretionary: "If a
. petitioner...presents [sufficient] evidence of innocence....the Petitioner should be
allowed to pass through the gateway and argue the merits."
3.

Briefly restated, the key points of fact this Court may have misapprehended

are:
A. The sole evidence used to convict McKenzie was fabricated
by the BRPD. The DNA sample was "manipulated" by an
evidence custodian. This is evident and would be proven by: (1)
The fact that this same Police Dept, also manipulated DNA on
another piece of evidence (a washcloth), alleging the presence
of his DNA thereon; later proven to be impossible due to his
being out of State when it was collected in 1987; (2) The BRPD
evidence bag alleged to be a rape kit, clearly was not the same
one released to police by Dr. Franklin in 1989. Provable
through reliable witnesses. (3) Police had McKenzie's buccal
swabs (DNA) since 2000. There is absolutely no rational
explanation for why the original rape kit disappeared and
was replaced by a police evidence bag unless it was to
manipulate its contents.
B. Official documents were altered and falsified to conceal the
fact that a rape kit was created in 2006. See Appendices
previously submitted.
C. Victim's affirmative refusal to identify McKenzie and her
positive ID of Miller and fingerprint evidence, exonerate
McKenzie.
4.

In Re: Davis, 557 U.S. 952 (2009) this Honorable Court remanded Davis to

District Court to "receive testimony and make findings of fact as to whether
evidence that could not have been obtained at the time of trial clearly establishes
2

Petitioner's innocence." Remand was granted despite that Davis had an evidentiary
hearing in State court. McKenzie has never had a hearing. In Fay v. Noia, 83 S. Ct.
822, 841 (1963) the Court said:
"But conventional nations of finality in criminal litigation
cannot be permitted to defeat the manifest federal policy that
federal constitutional rights of personal liberty shall not be
denied without the fullest opportunity for plenary federal
judicial review." Id. at 841.
5.

"I would add that the whole process of federal habeas corpus review is to

make an exception to finality. Indeed, in this context, our duty to search for
constitutional error is at its apex." Haynes v. Davis, 733 Fed. Appx. 766, 2015 U.S.
App. LEXIS 11955 (5th Cir. 2018), quoting Burger v. Kemp, 483 U.S. 776, 785
(1987) ("our duty to search for constitutional error [is] with painstaking care." See
also, Dretke v. Haley, 541 U.S. 386, 396-98 (2004) (and that preclusive doctrines
and formalities "yield to the imperative of correcting...fundamentally unjust
incarceration."
6.

This case presents very serious allegations that if true, establish actual

innocence. Any reasonable possibility that McKenzie is innocent, perhaps caught
up because of a prior record, politics, or some other unknown factor - this
Honorable Court as the last line of defense must intervene. It cannot allow
McKenzie to unjustly remain in prison for the rest of his life when a simple
evidentiary hearing would resolve the many unanswered question, and put to rest

3

once and for all the question: Is McKenzie actually innocent? A full Court review
would preclude a cursory dismissal or at minimum provide a reason for such
dismissal.
CONCLUSION
McKenzie respectfully requests a full Court hearing and asks this Honorable
Court to uphold his Constitutional rights, the same as afforded in House v. Bell,
547 U.S. 578; Schlup v. Delo, 513 U.S. at 346-49; In re. Davis, 557 U.S. 952; and
others, and remand this case to the District Court (S.D. of Fla.) for an evidentiary
hearing.
CERTIFICATE OF PETITIONER
I, John L. McKenzie, Petitioner, Pro se, do hereby certify pursuant to
Supreme Court Rule 44, that the Petition for Rehearing is presented in good faith
and not for purposes of delay. And is restricted to the grounds enumerated.

to

John L.'McKenzie, # 930334 ^
Okeechobee Correctional Institution
3420 N. E. 168th Street
Okeechobee, FL, 34972.

4

